  ASSETS FORFEITURE FUND 

            AND

 SEIZED ASSET DEPOSIT FUND

ANNUAL FINANCIAL STATEMENTS

     FISCAL YEAR 2011 

       U.S. Department of Justice

     Office of the Inspector General

              Audit Division


          Audit Report 12-12

            January 2012

               ASSETS FORFEITURE FUND

                         AND

              SEIZED ASSET DEPOSIT FUND

             ANNUAL FINANCIAL STATEMENTS

                   FISCAL YEAR 2011


              OFFICE OF THE INSPECTOR GENERAL

                 COMMENTARY AND SUMMARY


       This audit report contains the Annual Financial Statements of the
Assets Forfeiture Fund and Seized Asset Deposit Fund (AFF/SADF) for the
fiscal years (FY) ended September 30, 2011, and September 30, 2010.
Under the direction of the Office of the Inspector General (OIG), KPMG LLP
performed AFF/SADF’s audit in accordance with U.S. generally accepted
government auditing standards. The audit resulted in an unqualified opinion
on the FY 2011 financial statements. An unqualified opinion means that the
financial statements present fairly, in all material respects, the financial
position and the results of the entity’s operations in conformity with
U.S. generally accepted accounting principles. For FY 2010, the Department
also received an unqualified opinion on its financial statements (OIG Report
No. 11-12).

       KPMG LLP also issued reports on internal control over financial
reporting and on compliance and other matters. The auditors did not
identify any significant deficiencies in the FY 2011 Independent Auditors’
Report on Internal Control over Financial Reporting. Additionally, no
instances of non-compliance with applicable laws and regulations, and the
Federal Financial Management Improvement Act of 1996 were identified
during the audit in the FY 2011 Independent Auditors’ Report on Compliance
and Other Matters.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on AFF/SADF’S financial statements,
conclusions about the effectiveness of internal control, conclusions on
whether AFF/SADF’S financial management systems substantially complied
with the Federal Financial Management Improvement Act of 1996, or
conclusions on compliance with laws and regulations. KPMG LLP is
responsible for the attached auditors’ reports dated November 08, 2011, and



                                    -i-
the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with
U.S. generally accepted government auditing standards.




                                   - ii -
                   ASSETS FORFEITURE FUND

                             AND

                  SEIZED ASSET DEPOSIT FUND

                 ANNUAL FINANCIAL STATEMENTS

                       FISCAL YEAR 2011


                          TABLE OF CONTENTS


                                                                              PAGE


MANAGEMENT'S DISCUSSION AND ANALYSIS..........................................3


INDEPENDENT AUDITORS’ REPORTS


  REPORT ON FINANCIAL STATEMENTS ................................................ 17


  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING............ 19


  REPORT ON COMPLIANCE AND OTHER MATTERS ................................ 23


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


  CONSOLIDATED BALANCE SHEETS.................................................... 27


  CONSOLIDATED STATEMENTS OF NET COST ...................................... 28


  CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION............. 29


  COMBINED STATEMENTS OF BUDGETARY RESOURCES ........................ 30


  NOTES TO THE PRINCIPAL FINANCIAL STATEMENTS ........................... 31

This page intentionally left blank.

Management’s Discussion and Analysis


              Unaudited





              -1-
This page intentionally left blank.





            -2-
                              U.S. Department of Justice 

                Assets Forfeiture Fund and Seized Asset Deposit Fund 

                       Management’s Discussion and Analysis

                                                         (Unaudited) 

MISSION
The primary mission of the Department of Justice (DOJ or the Department) Asset Forfeiture Program
(AFP or the Program) is to prevent and reduce crime by disrupting, damaging, and dismantling
criminal organizations through the use of the forfeiture sanction. This is accomplished by means of
depriving drug traffickers, racketeers, and other criminal syndicates of their ill-gotten proceeds and
instrumentalities of their trade. Components responsible for the administration and financial
management of the AFP are charged with lawfully, effectively, and efficiently supporting law
enforcement authorities in the application of specified forfeiture statutes. The Assets Forfeiture Fund
(AFF or the Fund) and Seized Asset Deposit Fund (SADF) together comprise a single financial
reporting entity of the DOJ, which includes the specified funds, property seized for forfeiture, and the
transactions and program activities of DOJ forfeiture program components and other participating
agencies as described more fully herein.

ORGANIZATION STRUCTURE

Table 1 below displays the primary functional activities of the participating agencies in the AFP. For
the full names of the participating agencies, see Footnote 1. These agencies investigate or prosecute
criminal activity under statutes, such as the Comprehensive Drug Abuse Prevention and Control Act
of 1970, the Racketeer Influenced and Corrupt Organizations statute, the Controlled Substances Act,
and the Money Laundering Control Act, or provide administrative support services to the Program.

                              Table 1. Asset Forfeiture Program Participants by Function 

  Function      AFMLS      OCDETF        AFMS      ATF      DCIS     DEA     DS    EOUSA       FBI    FDA     USDA      USMS       USPS
Investigation                X                      X        X        X      X                  X      X       X                    X
  Litigation       X                                                                   X
 Custody of
   Assets                                            X                 X                        X                         X
Management         X                       X


FINANCIAL STRUCTURE
The AFP is comprised of two funds, which are under the management control of the Asset Forfeiture
Management Staff (AFMS). The AFF is a special fund listed in the U.S. Treasury Federal Account
Symbols and Titles Book as 15X5042. The SADF is a deposit fund listed as 15X6874.

The AFF was created by the Comprehensive Crime Control Act of 1984 to be the repository of the
proceeds of forfeitures under any law enforced and administered by the DOJ (28 U.S.C. § 524(c)). All



  The participants include the Asset Forfeiture and Money Laundering Section, Criminal Division (AFMLS); Organized Crime Drug
Enforcement Task Force (OCDETF); Asset Forfeiture Management Staff, Justice Management Division (AFMS); Bureau of Alcohol,
Tobacco, Firearms and Explosives (ATF); Defense Criminal Investigative Service (DCIS); Drug Enforcement Administration (DEA);
Bureau of Diplomatic Security, Department of State (DS); Executive Office for United States Attorneys (EOUSA); Federal Bureau of
Investigation (FBI); Food and Drug Administration (FDA), United States Department of Agriculture (USDA); United States Marshals
Service (USMS); and United States Postal Service (USPS).




                                                            -3-
amounts earned from the investment of AFF and SADF balances are deposited into the AFF. The
interest earned on the AFF balances is the property of the United States Government.

Monies deposited in the AFF are used to cover operating costs of the Program. These costs include,
for example, asset management and disposition expenses; equitable sharing payments to participating
state, local, and foreign governments; Automatic Data Processing (ADP) equipment expenses;
contract service payments; and payments of innocent third party claims. All salaries and employment
related expenses, liabilities, and imputed financing costs of DOJ AFP participants are reported in the
financial statements of the participants’ reporting entities. Salaries and employment related costs of
administrative personnel of the AFMS, AFMLS, and USMS are charged to the AFP as program
operating costs. The AFP’s operating costs do not include the costs of any participant salaries incurred
while conducting investigations leading to seizure and forfeiture.

While the AFF is the repository for forfeited currency and proceeds arising from the sale of forfeited
property and also serves as the operating fund for specified program expenditures, the SADF serves as
a repository for seized currency and specified deposits.

The SADF was created administratively by the DOJ to ensure control over monies seized by agencies
participating in the DOJ’s AFP. Public Law (P.L.) 102-140, dated October 28, 1991, provided
authority for the investment of SADF balances pending adjudication. Generally, monies in the SADF
are not the property of the Government. The SADF holds seized cash, the proceeds of any
pre-forfeiture sale of seized property, and forfeited cash not yet transferred to the AFF. Operating
businesses under seizure also may be managed through the SADF. Because most funds held in the
SADF are not Government property, monies in the SADF cannot be expended. SADF balances are
transferred to the AFF upon the successful conclusion of a forfeiture action.

The Fund receives most of its revenue from the forfeiture of cash and other monetary assets and,
secondly, from the sale of forfeited property. AFP participants may receive annual allocations by
suballotment advice or reimbursement agreement. The Fund’s first priority is to cover the business or
operational expenses of the AFP. After it is determined that there will be sufficient receipts,
allocations may be made for investigative expenses, such as awards for information, purchase of
evidence, and equipping of conveyances, and also discretionary expenses, such as storage, protection
and destruction of controlled substances.

Limitations on the Use of the Assets Forfeiture Fund

The AFF is defined by statute. Authorities and limitations governing use of the AFF are specified in
28 U.S.C. § 524(c). In addition, use of the AFF is controlled by laws and regulations governing the
use of public monies and appropriations (e.g., 31 U.S.C. § 1341-1353 and 1501-1558, Office of
Management and Budget (OMB) Circulars, and provisions of annual appropriation acts). The AFF is
further controlled by the Attorney General's Guidelines on Seized and Forfeited Property (July 1990),
policy memoranda, and statutory interpretations issued by appropriate authorities. Unless otherwise
provided by law, restrictions on the use of AFF monies retain those limitations after any monies are
made available to a recipient agency. Moreover, monies are available for use only to the extent that
receipts are available in the AFF.




                                                -4-
In Fiscal Year (FY) 2011 and 2010, monies were available under a permanent indefinite appropriation
to finance the following:

   (1)	    The operational costs of the forfeiture program, including handling and disposal of seized
           and forfeited assets, and the execution of legal forfeiture proceedings to perfect the title of
           the United States in that property.

   (2)	    The payment of innocent third party claims.

   (3)	    The payment of equitable shares to participating foreign governments and state and local
           law enforcement agencies.

   (4)	    The costs of ADP equipment and ADP support for the Program.

   (5)	    Contract services in support of the Program.

   (6)	    Training and printing associated with the Program.

   (7)	    Other management expenses of the Program.

   (8)	    Awards for information leading to forfeiture.

   (9)	    Joint Federal, state, and local law enforcement operations.

   (10)	   Investigative expenses leading to seizure.

Resources of the AFF are intended to cover the business expenses of the AFP, with any excess
balances available for discretionary purposes, including investigative expenses subject to
appropriations limitation (definite authority). Excess unobligated balances identified at the end of a
fiscal year may be declared a "Super Surplus" balance. Super Surplus balances may be allocated at the
discretion of the Attorney General for ". . . any Federal law enforcement, litigative/prosecutive, and
correctional activities, or any other authorized purpose of the DOJ" pursuant to 28 U.S.C. §
524(c)(8)(E).

Holding and Accounting for Seized and Forfeited Property
The USMS has primary responsibility for holding and maintaining real and tangible personal property
seized by participating agencies for disposition. Seized property can be either returned to the owner or
forfeited to the Government. Forfeited property is subsequently sold, placed into official use,
destroyed, or transferred to another agency. Seized and forfeited property is not considered inventory
held for resale in the normal course of business.




                                                 -5-
ANALYSIS OF FINANCIAL STATEMENTS
The following are brief explanations for the AFF/SADF financial results, position, and condition
conveyed in the principal financial statements. In FY 2011, ten major fraud cases resulted in
extraordinary forfeiture income of $733.6 million compared to the nine FY 2010 fraud cases that
resulted in extraordinary forfeiture income of $630.3 million. The term extraordinary is considered
nonrecurring forfeiture income greater than $25 million. The AFF/SADF financial results reflect the
impact of the large cases on forfeiture income and accrued liabilities in the fund balance with
Treasury, accounts payable, forfeiture revenue, and budgetary resources.

Consolidated Balance Sheets

Total assets, which present as of a specific time the amounts of future economic benefits owned or
managed by the AFF/SADF, increased in FY 2011 to $6,869.6 million from $3,999.8 million in
FY 2010, an increase of 71.7 percent. This is mostly attributable to a $2,206.2 million asset from
Jeffery Picower which is related to the Bernard Madoff financial fraud case. If seized assets, which
are not yet owned by the government, are not included, the adjusted assets of the Fund increased to
$2,852.8 million in FY 2011 from $2,575.0 million in FY 2010, an increase of 10.8 percent. This is
attributable to an increase in forfeited assets in FY 2011 from FY 2010, indicating a strong current and
future potential stream of assets flowing into the AFF.

Total liabilities of the funds increased to $5,109.1 million in FY 2011 from $2,312.4 million in
FY 2010, an increase of 120.9 percent. The majority of the change, $2,796.7 million, in liabilities is
due to the increase in seized cash and monetary instruments; the bulk of it is from the Picower asset.
This represents money that has been received, but not recognized as earned. Current assets were more
than current liabilities by a ratio of 2.61 to 1, which reflects a decrease of 0.29 from FY 2010. This
ratio continues to indicate that the AFF will be able to meet its obligations when due. In the
calculation of the ratio of current assets to current liabilities, current assets consist of total assets less
SADF net investments, plus seized cash deposited, seized monetary instruments (see Note 11), and
less property, plant and equipment while current liabilities include the total of liabilities covered by
budgetary resources, except for total seized cash and monetary instruments.

Consolidated Statements of Net Cost

Net cost of operations is related to DOJ’s strategic goal 2: Prevent Crime, Enforce Federal Laws and
Represent the Rights and Interests of the American People. Net cost of operations increased to
$1,663.9 million in FY 2011 from $1,284.4 million in FY 2010, an increase of 29.5 percent. To the
extent that financing sources do not cover net costs, AFF’s carry forward balances are used to support
program expenses. The carry forward balances consist primarily of special case funds and monies for
operational requirements.

Consolidated Statements of Changes in Net Position

Net position, an indicator of the Fund’s future capability to support ongoing operations, increased to
$1,760.5 million in FY 2011 from $1,687.4 million in FY 2010, an increase of 4.3 percent. The
Fund’s financing sources consist primarily of forfeited cash and other monetary assets and, secondly,
sale proceeds of forfeited property. Additional factors that consume resources and influence the AFF
net position to a lesser extent include the short-term interest rates that affect revenue from investments




                                                   -6-
in Government securities; the nature of seized non-cash properties that must be converted into cash
and the transfers of properties placed into official use.

The Program invests cash balances from both the AFF and SADF in Government securities. Earnings
over a five-year period are presented in Figure 2. Investment interest earnings (i.e., nonexchange
revenue) realized for the fiscal year ended September 30, 2011, totaled $4.6 million, which is $700
thousand more than the $3.9 million in investment interest earnings for the fiscal year ended
September 30, 2010. FY 2011 investment interest earned is $400 thousand less than the $5.0 million
estimated for FY 2011 in the Budget of the United States Government, Fiscal Year 2012--Appendix.
The increased earnings are due primarily to the increased fund balances and to a lesser extent the
increase in interest rates for one-month, three-month, and six-month Treasury bills. Amounts
available for investment are difficult to predict because many factors influence the balance. For
example, one significant factor is the level of third party payments and equitable sharing distributions.
 Uncertainties in the dollar amount and timing of these disbursements are difficult to predict.
Additional factors include the time to process equitable sharing requests and appeals of forfeiture
judgments.

Combined Statements of Budgetary Resources

Total budgetary resources increased to $2,708.9 million in FY 2011 from $2,440.9 million in
FY 2010, a 11.0 percent increase. The net increase is attributed to an increase in deposits into the
AFF. Nonrecurring forfeiture income increased to $733.6 million in FY 2011 from $630.3 million in
FY 2010. From FY 2011 activity, approximately $534.4 million of forfeiture income will be
disbursed to the victims of the fraud cases. As a result of the cases, the net outlays increased to
$1,410.7 million in FY 2011 from $1,286.1 million in FY 2010, an increase of 9.7 percent.

The total obligations incurred in FY 2011 were $1,620.2 million, an increase of $189.5 million
compared to $1,430.7 million incurred in FY 2010. The FY 2011 obligations increased relative to
FY 2010 due to nonrecurring case activity in FY 2011.

The AFF’s unobligated balance was $1,088.7 million as of September 30, 2011, an increase of 7.8
percent as compared to $1,010.2 million as of September 30, 2010. The unobligated balance carried
forward is retained in the AFF to ensure the availability of sufficient monies in the upcoming fiscal
year for authorized purposes. These purposes include program operating expenses as well as pending
extraordinary distributions, pending innocent third party payments, uncommitted Super Surplus
authority, and other items. For example, as of September 30, 2011, pending extraordinary equitable
sharing distributions totaled an estimated $644.4 million, which is comprised of 593 assets with values
greater than $1 million.




                                                 -7-
                    Table 2. Source of Assets Forfeiture Fund Resources
                                     (Dollars in Thousands)


                                                                                         Change
                       Source                             FY 2011         FY 2010          %
 Exchange Revenue                                              $9,513         $7,324       29.9%
 Budgetary Financing Sources
   Nonexchange Revenues                                         4,596           3,864      18.9%
   Donations and Forfeitures of Cash or Cash
 Equivalents                                                1,580,584      1,502,466        5.2%
 Other Financing Sources
   Donations and Forfeitures of Property                      157,381          70,864       122.1
   Transfers-In/Out Without Reimbursement                      (6,120)       (31,259)      80.4%
   Imputed Financing from Costs Absorbed by
 Others                                                           602               0     100.0%
 Total                                                     $1,746,556     $1,553,259       12.4%


                    Table 3. How Assets Forfeiture Fund Resources are Spent
                                    (Dollars in Thousands)


                                                                                        Change
                Strategic Goal (SG)                       FY 2011        FY 2010
                                                                                          %
 SG 2: Prevent Crime, Enforce Federal Laws,
 and Represent the Rights and Interests of the
 American People
                                Total Gross Cost          $1,673,412     $1,291,742
                     Less: Total Earned Revenue                9,513          7,324
                    Total Net Cost of Operations          $1,663,899     $1,284,418        29.5%


2011 Financial Highlights

As indicated in Table 3, in FY 2011 the AFF supported Strategic Goal 2 of the Attorney General’s
Strategic Plan for Fiscal Years 2007 – 2012, which includes Strategic Objective 2.2 - Reduce the
threat, incidence, and prevalence of violent crime.

The AFF has no costs associated with counterterrorism or homeland security.

Strategic Goal 2, Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests
of the American People. Included are expenditures made for case, program, investigative, and other
authorized support costs incurred by AFP participants to operate the activities of the Program. The
Fund’s resources cover the costs of seizing, evaluating, inventorying, maintaining, protecting,
advertising, forfeiting, and disposing of property seized for forfeiture. These costs are necessary to
support the AFP and fluctuate in direct relation to the forfeiture activity levels of the investigative,




                                                -8-
prosecutive, litigative, and administrative participants of the Fund. For the fiscal year ended
September 30, 2011, $1,663.9 million was expended (net of earned revenue) while $1,284.4 million
was expended (net of earned revenue) for the fiscal year ended September 30, 2010. Goal 2 net costs
are presented in Figure 1; financing sources are presented in Figure 2.




                                              -9-
PERFORMANCE INFORMATION
Data Reliability and Validity

The AFP views data reliability and validity as critically important in the planning and assessment of
its performance. The Justice Management Division (JMD) maintains standards and practices to ensure
that data reported meets the OMB standards for data reliability that are presented in OMB Circular No.
A-11, Preparing and Submitting the Annual Performance Report, Section 230.5.

The financial management of the Fund is supported by two JMD financial systems: Financial
Management Information System 2 (FMIS2) and Unified Financial Management System (UFMS).
FMIS2 is a computerized, general-purpose accounting and reporting system that supports the financial
operations of the DOJ. UFMS is a financial system to standardize business processes across all DOJ
components, except for Federal Prison Industries, providing secure, accurate, and timely financial
data. The AFMS was the Department’s pilot implementation in FY 2008. The implementation was
limited to only certain specific transactions such as reimbursable agreements with non-DOJ
participants of the AFP. Five components of the Department are scheduled to complete their UFMS
implementations by the end of FY 2014. The schedules for the remaining Departmental components
have not yet been determined. The FMIS2 remains the official accounting system of the AFP. The
USMS’ Standardized Tracking and Reporting System (STARS) data is uploaded into FMIS2. STARS
is the USMS Headquarters and field offices’ financial management system. The USMS will go live
on UFMS concurrently with the AFP in FY 2013. CATS is an integrated system that provides
services to the asset forfeiture community and serves as a subsidiary system for the financial
accounting and reporting of seized and forfeited property. Enhancements and refinements are being
made to some of these systems that will improve the usefulness of the data supporting the activities of
the AFF and SADF.

FY 2011 REPORT ON SELECTED RESULTS

STRATEGIC GOAL 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and
Interests of the American People
100% of the AFF’s Net Costs support this Goal.

PROGRAM:

Background/Program Objectives: The primary purpose of the AFP is to deter crime by disrupting,
damaging, and dismantling criminal organizations through the use of forfeiture sanction. Depriving
white collar criminals, drug traffickers, racketeers, and other criminal syndicates of their ill-gotten
proceeds and instrumentalities of their trade not only achieves important law enforcement objectives
but also provides an effective means of recovering funds for victim restitution.

Among other important benefits of an aggressive and well-managed forfeiture program is the
application of surplus revenues to law enforcement objectives, such as enhancing cooperation among
Federal, state, and local law enforcement agencies through the equitable sharing of Federal forfeiture
proceeds. Pursuant to 21 U.S.C. § Sec. 881(e)(1) and 19 U.S.C. § Sec. 1616a, as made applicable by
21 U.S.C. § Sec. 881(d) and other statutes, the Attorney General has the authority to equitably transfer
forfeited property and cash to state and local agencies that directly participate in the law enforcement




                                                - 10 -
effort leading to the seizure and forfeiture of property. All property and cash transferred to state and
local agencies and any income generated by this property and cash is to be used for law enforcement
purposes. As a result, state and local law enforcement programs and capabilities benefit significantly
from their cooperative efforts with Federal law enforcement agencies. Among the uses of equitable
shares, priority is given to supporting community policing activities, training, and law enforcement
operations calculated to result in further seizures and forfeitures.

Performance Measures:

There are no applicable AFP performance measures. No performance measures are indicated because
the Fund’s program operations are performed by its participants. The Fund is considered to be an
enabling/administrative activity where resources are spread across agencies in accordance with full
program costing guidance.

Discussion of FY 2011 Results:

Total financing sources realized by the Fund were $1,737.0 million for the fiscal year ended
September 30, 2011. This is the sixth year since inception of the Fund that it has exceeded $1 billion
in deposits. For example, in FY 2011 there was an SEC violation case against John J. Rigas, the
founder of Adelphia Communications Corporation, which yielded approximately $107 million in
deposits into the AFF. Another example involves Barclay’s Bank PLC which violated the
International Emergency Economic Powers Act (IEEPA) and the Trading with the Enemy Act
(TWEA); this yielded a deposit of $75 million into the AFF. If we remove the effect of the ten major
large cases producing $733.6 million, the deposits still exceeded $990 million in FY 2011.



ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE
FMFIA Section 2 – Material Weaknesses

For FY 2011 and FY 2010, the independent auditors reported no material weaknesses. Management’s
self assessment of the AFF/SADF internal controls over financial reporting, conducted in FY 2010, as
required by the Federal Managers’ Financial Integrity Act of 1982 (FMFIA) and OMB Circular No.
A-123, Management’s Responsibility for Internal Control, identified that internal controls over seized
and forfeited property management needed to be strengthened. That finding was not repeated in
FY 2011.

Based on the results of the assessment for the year ended September 30, 2011, the JMD management
did not identify any Section 2 material weaknesses to report that impact the AFP. The FY 2011
AFF/SADF FMFIA report revealed no deficiencies in the seized and forfeited property controls.

Internal Control Program

The Attorney General will provide the overall assurance statement on internal controls for the
Department. Component responsibilities will be determined by the Department’s Senior Assessment
Team.




                                                - 11 -
AFMS is responsible for maintaining internal accounting and administrative controls that are adequate
to ensure that: (1) transactions are executed in accordance with applicable budgetary and financial
laws and other requirements, consistent with the purposes authorized, and are recorded in accordance
with Federal accounting standards; (2) assets are properly safeguarded to deter fraud, waste, and
abuse; and (3) management information is adequately supported. AFMS, along with other Fund
participants who use FMIS2 and UFMS, monitor their financial transactions on an on-going basis.
AFMS also requires participants who enter Fund transactions into their own financial system to
provide reports of their financial transactions at least quarterly to update the AFF obligation status.

FMFIA Section 4 – Material Nonconformances

For FY 2011 and FY 2010, the Fund reported no material nonconformances of its financial-mixed IT
system CATS. For FY 2011, the Offices, Boards and Divisions’ (OBD) and AFP’s management
participated in the Departmental assessment of internal controls over financial reporting required by
Appendix A of OMB Circular No. A-123. Results of the testing of the controls over financial
reporting in the OBD’s will be consolidated with other Departmental components and reported in the
overall Departmental assurance statement. In FY 2011 and FY 2010 the DOJ did not identify any
systems non-conformance required to be reported under FMFIA Section 4. The Fund relies upon the
Department’s JMD/FMIS2 and UFMS managers for Section 4 compliance on the Department’s
financial system of record.

Legal Compliance

For FY 2011 and FY 2010, the AFF/SADF was in compliance with the requirements and
responsibilities defined in applicable laws and administrative requirements, including FMFIA, the
Federal Financial Management Improvement Act of 1996 (FFMIA), and relevant OMB Circulars.


POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS

Financing sources in FY 2011 totaled $1,737.0 million, which are $191.1 million more than the
$1,545.9 million reported in FY 2010. It is difficult to project future levels of financing since they are
dependent upon many factors, including the development of new cases, uneven flow of cases through
the forfeiture process, level of appropriations that Federal law enforcement agencies receive, level of
personnel and monetary resources dedicated to the forfeiture program, international cooperation in
forfeiture and repatriation matters, Federal court decisions, and evolving forfeiture law.

In 2008, the DOJ began to replace the core financial management systems with one core commercial
off-the-shelf financial management system certified by the Financial Systems Integration Office. The
first pilot implementation of the UFMS occurred with AFMS. In 2011, the USMS Asset Forfeiture
Division will begin implementation of UFMS. Also in FY 2011, the AFMS will begin implementing
the second and final phase of UFMS implementation. The AFMS and USMS AFD implementations
of UFMS are scheduled for completion in 2013.




                                                - 12 -
LIMITATIONS OF THE FINANCIAL STATEMENTS
The financial statements have been prepared to report the financial position and results of operations
of the AFF/SADF, pursuant to the requirements of 31 U.S.C. § 3515(b).

While the statements have been prepared from the books and records of the AFF/SADF in accordance
with U.S. generally accepted accounting principles for Federal entities and the formats prescribed by
OMB, the statements are in addition to the financial reports used to monitor and control budgetary
resources, which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.




                                               - 13 -
This page intentionally left blank.





           - 14 -
Independent Auditors' Reports 





            - 15 -
This page intentionally left blank.





           - 16 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




                        Independent Auditors’ Report on Financial Statements


Acting Inspector General
U.S. Department of Justice

Chief Financial Officer
Assets Forfeiture Fund and Seized Asset Deposit Fund
U.S. Department of Justice

We have audited the accompanying consolidated balance sheets of the U.S. Department of Justice Assets
Forfeiture Fund (AFF) and Seized Asset Deposit Fund (SADF) as of September 30, 2011 and 2010, and
the related consolidated statements of net cost and changes in net position, and the combined statements of
budgetary resources (hereinafter referred to as “consolidated financial statements”) for the years then
ended. These consolidated financial statements are the responsibility of the AFF/SADF’s management.
Our responsibility is to express an opinion on these consolidated financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
the AFF/SADF’s internal control over financial reporting. Accordingly, we express no such opinion. An
audit also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
consolidated financial statements, assessing the accounting principles used and significant estimates made
by management, as well as evaluating the overall consolidated financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Justice Assets Forfeiture Fund and Seized Asset
Deposit Fund as of September 30, 2011 and 2010, and its net costs, changes in net position, and budgetary
resources for the years then ended in conformity with U.S. generally accepted accounting principles.

The information in the Management’s Discussion and Analysis section is not a required part of the
consolidated financial statements, but is supplementary information required by U.S. generally accepted
accounting principles. We have applied certain limited procedures, which consisted principally of
inquiries of management regarding the methods of measurement and presentation of this information.
However, we did not audit this information and, accordingly, we express no opinion on it.



                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.


                                                      - 17 -
Independent Auditors’ Report on Financial Statements
Page 2


In accordance with Government Auditing Standards, we have also issued our reports dated November 8,
2011, on our consideration of the AFF/SADF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




November 8, 2011




                                               - 18 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control over Financial Reporting


Acting Inspector General
U.S. Department of Justice

Chief Financial Officer
Assets Forfeiture Fund and Seized Asset Deposit Fund
U.S. Department of Justice

We have audited the consolidated balance sheets of the U.S. Department of Justice Assets Forfeiture Fund
(AFF) and Seized Asset Deposit Fund (SADF) as of September 30, 2011 and 2010, and the related
consolidated statements of net cost and changes in net position, and the combined statements of budgetary
resources (hereinafter referred to as “consolidated financial statements”) for the years then ended, and have
issued our report thereon dated November 8, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement.

The management of the AFF/SADF is responsible for establishing and maintaining effective internal
control. In planning and performing our fiscal year 2011 audit, we considered the AFF/SADF’s internal
control over financial reporting by obtaining an understanding of the AFF/SADF’s internal control,
determining whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls as a basis for designing our auditing procedures for the purpose of expressing our opinion
on the consolidated financial statements, but not for the purpose of expressing an opinion on the
effectiveness of the AFF/SADF’s internal control over financial reporting. Accordingly, we do not express
an opinion on the effectiveness of the AFF/SADF’s internal control over financial reporting. We did not
test all internal controls relevant to operating objectives as broadly defined by the Federal Managers’
Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2011 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.



                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.


                                                       - 19 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 2



Exhibit I presents the status of the prior years’ finding and recommendations.

We noted certain additional matters that we have reported to management of the AFF/SADF in a separate
letter dated November 8, 2011.

This report is intended solely for the information and use of the AFF/SADF’s management, the U.S.
Department of Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office,
and the U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.




November 8, 2011




                                              - 20 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 3

                                                                                                               EXHIBIT I

                STATUS OF PRIOR YEARS’ FINDINGS AND RECOMMENDATIONS

As required by Government Auditing Standards issued by the Comptroller General of the United States,
and by OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended, we
have reviewed the status of prior years’ findings and recommendations. The following table provides our
assessment of the progress the AFF/SADF has made in correcting the previously identified significant
deficiencies. We also provide the Office of the Inspector General report number where the deficiency
was reported, our recommendation for improvement, and the status of the recommendation as of the end
of fiscal year 2011:

                Significant
    Report                                                   Recommendation                                     Status
                Deficiency
Annual      Internal controls            Recommendation No. 1: Enforce procedures                            Completed 1
Financial   over seized and              among participating agencies to ensure that data in
Statement   forfeited property           the property and financial management systems are
Fiscal Year management                   updated in a timely manner as changes in status
2009 Report need to be                   and valuations occur.
No. 10-10   strengthened
                                         Recommendation No. 3: Work with Asset                               Completed1
                                         Forfeiture Program participants to arrive at a
                                         standardized process (including acceptable forms
                                         of documentation) for authorizing the deletion of
                                         CATS property records and maintaining proper
                                         documentation as evidence of the authorization.



Annual           Internal controls       Recommendation No. 2:            Reinforce among                    Completed 1
Financial        over seized and         participating agencies the requirement to obtain
Statement        forfeited property      market value appraisals in a timely manner after
Fiscal Year      management              transfer of custody is completed.
2010 Report      need to be
No. 11-12        strengthened            Recommendation No. 3:            Reinforce among                    Completed1
                                         participating agencies the requirement to “flag” or
                                         otherwise denote FIRE assets upon their entry into
                                         CATS. Flagging FIRE assets will prevent them
                                         from being included in the seized asset footnote
                                         disclosures. As a detective control procedure,
                                         AFMS should consider performing periodic
                                         reviews and analyses of CATS data to identify
                                         potential FIRE assets that were not designated as
                                         such at the time they were entered into CATS.




1
  Sufficient progress has been made in addressing this finding and the related recommendation such that the remaining risk of
misstatement no longer merits the attention by those charged with governance. Therefore, the condition has been downgraded to
a deficiency in internal control.




                                                          - 21 -
This page intentionally left blank.





           - 22 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




                   Independent Auditors’ Report on Compliance and Other Matters


Acting Inspector General
U.S. Department of Justice

Chief Financial Officer
Assets Forfeiture Fund and Seized Asset Deposit Fund
U.S. Department of Justice

We have audited the consolidated balance sheets of the U.S. Department of Justice Assets Forfeiture Fund
(AFF) and Seized Assets Deposit Fund (SADF) as of September 30, 2011 and 2010, and the related
consolidated statements of net cost and changes in net position, and the combined statements of budgetary
resources (hereinafter referred to as “consolidated financial statements”) for the years then ended, and have
issued our report thereon dated November 8, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the consolidated financial statements are free of material misstatement.

The management of the AFF/SADF is responsible for complying with laws, regulations, and contracts
applicable to the AFF/SADF. As part of obtaining reasonable assurance about whether the AFF/SADF’s
fiscal year 2011 consolidated financial statements are free of material misstatement, we performed tests of
the AFF/SADF’s compliance with certain provisions of laws, regulations, and contracts, noncompliance
with which could have a direct and material effect on the determination of the consolidated financial
statement amounts, and certain provisions of other laws and regulations specified in OMB Bulletin
No. 07-04, including the provisions referred to in Section 803(a) of the Federal Financial Management
Improvement Act of 1996 (FFMIA). We limited our tests of compliance to the provisions described in the
preceding sentence, and we did not test compliance with all laws, regulations, and contracts applicable to
the AFF/SADF. However, providing an opinion on compliance with those provisions was not an objective
of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph, exclusive of those referred to
in FFMIA, disclosed no instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards or OMB Bulletin No. 07-04.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.


                                                      - 23 -
The results of our tests of FFMIA disclosed no instances in which the AFF/SADF’s financial management
systems did not substantially comply with the (1) Federal financial management system requirements,
(2) applicable Federal accounting standards, and (3) application of the United States Government Standard
General Ledger at the transaction level.

This report is intended solely for the information and use of the AFF/SADF’s management, the
U.S. Department of Justice Office of the Inspector General, OMB, the U.S. Government Accountability
Office, and the U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.




November 8, 2011




                                             - 24 -
          Principal Financial Statements
                and Related Notes

See Independent Auditors’ Report on Financial Statements




                       - 25 -
This page intentionally left blank.





           - 26 -
                                      U.S. Department of Justice

                        Assets Forfeiture Fund and Seized Asset Deposit Fund

                                     Consolidated Balance Sheets

                                 As of September 30, 2011 and 2010


Dollars in Thousands                                                                                  2011            2010

ASSETS (Note 2)
    Intragovernmental
         Fund Balance with U.S. Treasury (Note 3)                                     $       229,030        $     180,150
         Investments, Net (Note 5)                                                          6,346,771            3,491,262
         Accounts Receivable, (Note 6)                                                          4,869                4,245
         Other Assets (Note 9)                                                                  1,766                2,607
    Total Intragovernmental                                                                 6,582,436            3,678,264
   Cash and Monetary Assets (Note 4)                                                          113,822              131,030
   Forfeited Property, Net (Note 7)                                                           172,746              189,122
   General Property, Plant and Equipment, Net (Note 8)                                            633                1,417
   Advances and Prepayments                                                                         6                   12
Total Assets                                                                          $     6,869,643        $   3,999,845

LIABILITIES (Note 10)
    Intragovernmental
         Accounts Payable                                                             $         67,345       $     69,170
         Other Liabilities, (Note 12)                                                              169                  -
    Total Intragovernmental                                                           $         67,514       $     69,170
   Accounts Payable                                                                           851,013              629,347
   Accrued Payroll and Benefits                                                                   767                    -
   Accrued Annual and Compensatory Leave Liabilities                                              168                    -
   Deferred Revenue                                                                           172,746              189,122
   Seized Cash and Monetary Instruments (Note 11)                                           4,016,891            1,424,806
Total Liabilities                                                                     $     5,109,099        $   2,312,445

Contingent Liabilities (Note 13)

NET POSITION
   Cumulative Results of Operations - Earmarked Funds (Note 14)                       $     1,760,544        $   1,687,400
Total Net Position                                                                    $     1,760,544        $   1,687,400
Total Liabilities and Net Position                                                    $     6,869,643        $   3,999,845


                         The accompanying notes are an integral part of these financial statements.




                                                            - 27 -
                                                          U.S. Department of Justice

                                            Assets Forfeiture Fund and Seized Asset Deposit Fund

                                                     Consolidated Statements of Net Cost

                                           For the Fiscal Years Ended September 30, 2011 and 2010


Dollars in Thousands


                                           Gross Costs                                     Less: Earned Revenues                     Net Cost
                                                                                                                                        of
                            Intra-            With the                            Intra-             With the                       Operations
                 FY      governmental          Public            Total         governmental           Public              Total      (Note 15)


Goal 2          2011     $      380,028      $ 1,293,384      $ 1,673,412      $          9,513     $             -   $     9,513   $ 1,663,899

                2010     $      382,798      $ 908,944        $ 1,291,742      $          7,324     $             -   $     7,324   $ 1,284,418



Total           2011     $      380,028      $ 1,293,384      $ 1,673,412      $          9,513     $             -   $     9,513   $ 1,663,899


                2010     $      382,798      $ 908,944        $ 1,291,742      $          7,324     $             -   $     7,324   $ 1,284,418


Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People




                                     The accompanying notes are an integral part of these financial statements.




                                                                - 28 -
                                            U.S. Department of Justice

                              Assets Forfeiture Fund and Seized Asset Deposit Fund

                               Consolidated Statements of Changes in Net Position

                             For the Fiscal Years Ended September 30, 2011 and 2010


Dollars in Thousands                                                                      2011              2010

                                                                                      Earmarked        Earmarked
                                                                                        Funds            Funds
Cumulative Results of Operations
  Beginning Balances                                                                 $   1,687,400     $   1,425,883

  Budgetary Financing Sources
    Nonexchange Revenues (Note 19)                                                           4,596             3,864
    Donations and Forfeitures of Cash and Cash Equivalents (Note 20)                     1,580,584         1,502,466

  Other Financing Sources
    Donations and Forfeitures of Property (Note 20)                                        157,381            70,864
    Transfers-In/Out Without Reimbursement (Note 18)                                        (6,120)          (31,259)
    Imputed Financing from Costs Absorbed by Others (Note 16)                                  602                 -
  Total Financing Sources                                                                1,737,043         1,545,935

  Net Cost of Operations                                                                 (1,663,899)       (1,284,418)

  Net Change                                                                                73,144           261,517

  Cumulative Results of Operations                                                   $   1,760,544     $   1,687,400

Net Position                                                                         $   1,760,544     $   1,687,400


                       The accompanying notes are an integral part of these financial statements.




                                                                      - 29 -
                                                  U.S. Department of Justice

                                    Assets Forfeiture Fund and Seized Asset Deposit Fund

                                        Combined Statements of Budgetary Resources

                                   For the Fiscal Years Ended September 30, 2011 and 2010


Dollars in Thousands                                                                                                   2011             2010

Budgetary Resources

    Unobligated Balance, Brought Forward, October 1                                                           $   1,010,179    $   1,195,445

    Recoveries of Prior Year Unpaid Obligations                                                                     83,669           67,328

    Budget Authority
           Appropriations Received                                                                                2,097,810        1,554,993
           Spending Authority from Offsetting Collections
               Earned
                   Collected                                                                                        11,665           10,073
                   Change in Receivable from Federal Sources                                                           624              223
               Change in Unfilled Customer Orders
                   Without Advance from Federal Sources                                                                  20                -
    Subtotal Budget Authority                                                                                     2,110,119        1,565,289

    Temporarily not Available Pursuant to Public Law                                                              (495,042)        (387,200)
    Permanently Not Available                                                                                            -

Total Budgetary Resources (Note 17)                                                                           $   2,708,925    $   2,440,862


Status of Budgetary Resources
    Obligations Incurred
           Direct                                                                                             $   1,615,962    $   1,423,309
           Reimbursable                                                                                               4,244            7,374
               Total Obligations Incurred (Note 17)                                                               1,620,206        1,430,683
    Unobligated Balance - Available
           Apportioned                                                                                             635,227          669,036
               Total Unobligated Balance - Available                                                               635,227          669,036

    Unobligated Balances not Available                                                                             453,492          341,143

Total Status of Budgetary Resources                                                                           $   2,708,925    $   2,440,862

Change in Obligated Balance

    Obligated Balance, Net - Brought Forward, October 1
           Unpaid Obligations                                                                                 $     982,679    $     919,387
           Less: Uncollected Customer Payments from Federal Sources                                                   4,245            4,022
               Total Unpaid Obligated Balance, Net - Brought Forward, October 1                                     978,434          915,365
    Obligations Incurred, Net                                                                                     1,620,206        1,430,683
    Less: Gross Outlays                                                                                           1,426,916        1,300,063
    Less: Recoveries of Prior Year Unpaid Obligations, Actual                                                        83,669           67,328
    Change in Uncollected Customer Payments from Federal Sources                                                       (644)            (223)

    Obligated Balance, Net - End of Period
           Unpaid Obligations                                                                                     1,092,300         982,679
           Less: Uncollected Customer Payments from Federal Sources                                                   4,889           4,245
               Total Unpaid Obligated Balance, Net - End of Period                                            $   1,087,411    $    978,434

Net Outlays
    Gross Outlays                                                                                             $   1,426,916    $   1,300,063
    Less: Offsetting Collections                                                                                     11,665           10,073
    Less: Distributed Offsetting Receipts (Note 17)                                                                   4,596            3,864
Total Net Outlays (Note 17)                                                                                   $   1,410,655    $   1,286,126


                                  The accompanying notes are an integral part of these financial statements




                                                                      - 30 -
                                                FY 2011 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 1. Summary of Significant Accounting Policies

A.     Reporting Entity

The Assets Forfeiture Fund (AFF or Fund) and Seized Asset Deposit Fund (SADF) together
comprise a single financial reporting entity of the Department of Justice (DOJ or Department),
which includes the specified funds, property seized for forfeiture, and the transactions and
program activities of DOJ forfeiture program components and other participating agencies as
described more fully herein.

The primary mission of the DOJ Asset Forfeiture Program (AFP) is to maximize the
effectiveness of forfeiture as a deterrent to crime. This is accomplished by means of depriving
drug traffickers, racketeers, and other criminal syndicates of their ill-gotten proceeds and
instrumentalities of their trade. Components responsible for administration and financial
management of the AFP are charged with lawfully, effectively, and efficiently supporting law
enforcement authorities in the application of specified forfeiture statutes.

The AFF was created by the Comprehensive Crime Control Act of 1984 to be a repository of
proceeds from forfeitures under any law enforced and administered by the DOJ. AFF and SADF
are managed by the Asset Forfeiture Management Staff (AFMS), Justice Management Division
(JMD). The SADF was created administratively by the Department to ensure control over monies
seized by agencies participating in the Department’s AFP.


B.     Basis of Presentation

These financial statements have been prepared from the books and records of the AFF/SADF in
accordance with United States generally accepted accounting principles issued by the Federal
Accounting Standards Advisory Board (FASAB) and presentation guidelines in the Office of
Management and Budget (OMB) Circular No. A-136, Financial Reporting Requirements. These
financial statements are different from the financial reports prepared pursuant to OMB




                    These notes are an integral part of the financial statements.


                                                    - 31 -
                                                FY 2011 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


B.     Basis of Presentation (continued)

directives, which are used to monitor and control the use of the AFF/SADF budgetary resources.
To ensure that the AFF/SADF financial statements are meaningful at the entity level and to
enhance reporting consistency within the Department, Other Assets and Other Liabilities as
defined by OMB Circular No. A-136 have been disaggregated on the balance sheet. These
include Forfeited Property, Net; Advances and Prepayments; Accrued Payroll and Benefits;
Accrued Annual and Compensatory Leave Liabilities; Deferred Revenue and Seized Cash and
Monetary Instruments.

C.     Basis of Consolidation

The consolidated/combined financial statements include the accounts of the AFF/SADF. All
significant proprietary intra-entity transactions and balances have been eliminated in
consolidation. The Statement of Budgetary Resources is a combined statement for FYs 2011 and
2010, and as such, intra-entity transactions have not been eliminated.

D.     Basis of Accounting

Transactions are recorded on the accrual and budgetary bases of accounting. Under the accrual
basis, revenues are recorded when earned and expenses are recorded when incurred, regardless of
when cash is exchanged. Under the budgetary basis, however, funds availability is recorded
based upon legal considerations and constraints. As a result, certain line items on the proprietary
financial statements may not equal similar line items on the budgetary financial statements.

E.     Non-Entity Assets

Non-entity assets consist of seized property and investments of seized cash that are not available
to fund the operations of the AFP.

F.     Fund Balance with U.S. Treasury and Cash

Generally, the U.S. Treasury processes cash receipts and disbursements for the AFF and SADF.
The funds in the AFF, a special fund receipt account, are entity assets and are used to finance the
operations of the AFP. Seized cash is deposited and accounted for in the SADF, a deposit fund,
until a determination has been made as to its disposition. If title passes to the U.S. Government,
the forfeited cash is then transferred from the SADF to the AFF. The cash balance in the SADF
is a non-entity asset and is not available to finance the AFP activities, but the AFP does have
statutory authority for the investment of idle cash.




                    These notes are an integral part of the financial statements.


                                                    - 32 -
                                                 FY 2011 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


G.     Investments

The AFF and SADF are authorized by 28 U.S.C. § 524(c) to invest idle funds in excess of their
immediate needs in U.S. Treasury Securities. Investments are short-term non-marketable market-
based Federal Debt securities issued by the Bureau of Public Debt (BPD) and purchased
exclusively through the BPD’s Division of Federal Investments. Investments are reported on the
Consolidated Balance Sheet at their net value, the face value plus or minus any unamortized
premium or discount. Premiums and discounts are amortized over the life of the Treasury
security. Amortization is based on the straight-line method over the term of the securities. AFF
and SADF intend to hold investments to maturity. Accordingly, no provision is made for
unrealized gains or losses on these securities.

H.     Accounts Receivable

Accounts receivable mainly consist of amounts due from other Federal agencies for goods or
services provided by the AFP. Receivables arising from services provided to other Federal
agencies are considered fully collectible. Therefore, no allowance for uncollectible accounts is
established.

I.     General Property, Plant and Equipment

The General Services Administration (GSA), which charges rent equivalent to the commercial
rates for similar properties, provides a building on a reimbursable basis in which AFMS operates.
The Department does not recognize depreciation on buildings owned by the GSA.

Property, plant and equipment consist of leasehold improvements and enhancements to the
Consolidated Asset Tracking System (CATS), which meet the SFFAS No. 10, Accounting for
Internal Use Software, definition of “internal use software.” Leasehold improvements are
capitalized when the initial cost of acquiring the asset is $100 or more, and the asset has an
estimated useful life of two or more years. Internal use software is capitalized when
developmental phase costs or enhancement costs are $500 or more and the asset has an estimated
useful life of two or more years. Internal use software purchases with an acquisition cost of less
than $500 are expensed when purchased. Depreciation is calculated using the straight-line
method over the useful lives of the assets.




                     These notes are an integral part of the financial statements.


                                                     - 33 -
                                                 FY 2011 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


J.     Advances and Prepayments

Advances and prepayments include advances to other Federal agencies for any law enforcement,
litigative/prosecutive, and correctional activity, or any other authorized purpose of the DOJ and
travel advances issued to Federal employees for official travel. Travel advances are limited to
meals and incidental expenses expected to be incurred by employees during official travel.
Payments in advance of the receipt of goods and services are recorded as prepaid charges at the
time of payment and are recognized as expenses when the goods and services are received.
Advances and prepayments involving other Federal agencies are classified as Other Assets on the
balance sheet.

K.     Forfeited and Seized Property

Property is seized in consequence of a violation of public law. Seized property can include
monetary instruments, real property, and tangible personal property of others in the actual or
constructive possession of the custodial agency. The value of seized property is its estimated fair
market value at the time it was seized. Most seized property is held by the USMS from the point
of seizure until its disposition. In certain cases, the investigative agency will keep seized
property in its custody if the intention is to place the property into official use after forfeiture or
to use the property as evidence in a court proceeding.

Forfeited property is property for which title has passed to the U.S. Government. This property is
recorded at the estimated fair market value at the time of forfeiture and is not adjusted for any
subsequent increases and decreases in estimated fair market value. The value of the property is
reduced by estimated liens of record. The amount ultimately realized from the forfeiture and
disposition of these assets could differ from the amounts initially reported. The proceeds from
the sale of forfeited property are deposited in the AFF.

L.     Liabilities

AFF accounts payable represent liabilities to both Federal and non-Federal entities. Deferred
revenue represents the value of forfeited property not yet sold or placed into official use. Seized
cash and monetary instruments represent liabilities for SADF amounts on deposit pending
disposition.




                     These notes are an integral part of the financial statements.


                                                     - 34 -
                                                FY 2011 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


M.     Contingencies and Commitments

The AFF is party to various administrative proceedings, legal actions and claims. The balance
sheet includes an estimated liability for those legal actions where management and the Chief
Counsel consider adverse decisions “probable” and amounts are reasonably estimable. Legal
actions where management and the Chief Counsel consider adverse decisions “probable” or
“reasonably possible” and the amounts are reasonably estimable are disclosed in Note 13,
Contingencies and Commitments. However, there are cases where amounts have not been
accrued or disclosed because the amounts of the potential loss cannot be estimated or the
likelihood of an unfavorable outcome is considered “remote”.


N.     Retirement Plans

With few exceptions, employees hired before January 1, 1984, are covered by the Civil Service
Retirement System (CSRS) and employees hired on or after that date are covered by the Federal
Employees Retirement System (FERS). For employees covered by CSRS, the AFF contributes
7% of the employees’ gross pay for retirement. For employees covered by FERS, the AFF
contribute 11.7% of the employees’ gross pay for retirement. All employees are eligible to
contribute to the Federal Thrift Savings Plan (TSP). For those employees covered by the FERS,
a TSP account is automatically established, and the AFF is required to contribute an additional
1% of gross pay to this plan and match employee contributions up to 4%. No contributions are
made to the TSP accounts established by the CSRS employees. The AFF does not report CSRS
or FERS assets, accumulated plan benefits, or unfunded liabilities, if any, which may be
applicable to their employees. Such reporting is the responsibility of the Office of Personnel
Management (OPM). Statement of Federal Financial Accounting Standards (SFFAS) No. 5,
Accounting for Liabilities of the Federal Government, requires employing agencies to recognize
the cost of pensions and other retirement benefits during their employees’ active years of service.
Refer to Note 16, Imputed Financing from Costs Absorbed by Others, for additional details.


O.     Interest on Late Payments

Pursuant to the Prompt Payment Act, 31 U.S.C. § 3901-3907, Federal agencies must pay interest
on payments for goods or services made to concerns after the due date. The due date is generally
30 days after receipt of a proper invoice or acceptance of the goods or services, whichever is
later.




                    These notes are an integral part of the financial statements.


                                                    - 35 -
                                                 FY 2011 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


P.     Intragovernmental Activity

Intragovernmental costs and exchange revenue represent transactions made between two
reporting entities within the Federal government. Costs and earned revenues with the public
represent exchange transactions made between the reporting entity and a non-Federal entity. The
classification of revenue or cost as “intragovernmental” or “with the public” is defined on a
transaction-by-transaction basis. The purpose of this classification is to enable the Federal
government to prepare consolidated financial statements, not to match public and
intragovernmental revenue with costs incurred to produce public and intragovernmental revenue.

Q.     Revenues and Other Financing Sources

The funds in the AFF are derived primarily from financing sources and are presented on the
Consolidated Statements of Changes in Net Position as both Budgetary and Other Financing
Sources. Financing sources consist of (1) interest earned on investments (i.e., nonexchange
revenues) and (2) donations and forfeitures, which include forfeited cash, proceeds from the sale
of forfeited property (or conversion of deferred revenue to realized revenue through sale), receipt
of payments in lieu of property forfeiture, recovery of asset management expenses, and financing
sources from judgments. These financing sources are recognized when cash is forfeited, forfeited
property is sold, or forfeited property is placed into official use or transferred to another Federal
agency. The financing sources from legal judgments are not recognized until the judgment has
been enforced. Deferred revenue is recorded when the property is forfeited. When the property is
sold or otherwise disposed, the deferred revenue becomes earned and a financing source is
recognized. The AFF recognizes exchange revenue when the United States Attorneys Offices
provide services in judicial forfeiture cases brought by agencies participating in the U.S.
Department of the Treasury (Treasury), Treasury Forfeiture Fund (TFF). The AFF recognizes
exchange revenue on a reimbursement basis and the revenue is presented on the Consolidated
Statements of Net Cost as earned revenue. In accordance with 28 U.S.C. § 524 and AFMS
Memorandums of Understanding, donations and forfeitures available for use by certain Federal
agencies are treated as returns of financing sources when disbursed. The funds in the SADF are
held in trust until a determination is made as to their disposition. These funds include seized
cash, proceeds from preforfeiture sales of seized property, and income from property under
seizure. No revenue recognition is given to cash deposited in the SADF.




                     These notes are an integral part of the financial statements.


                                                     - 36 -
                                                FY 2011 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


R.     Earmarked Funds

SFFAS No. 27, Identifying and Reporting Earmarked Fund defines “Earmarked Funds” as being
financed by specifically identified revenues, often supplemented by other financing sources,
which remain available over time. These specifically identified revenues and other financing
sources are required by statute to be used for designated activities, benefits or purposes, and must
be accounted for separately from the Government’s general revenues. The three required criteria
for an earmarked fund are:

 1.	 A statute committing the Federal Government to use specifically identified revenues and
     other financing sources only for designated activities, benefits, or purposes;
 2.	 Explicit authority for the earmarked fund to retain revenues and other financing sources not
     used in the current period for future use to finance the designated activities, benefits, or
     purposes; and
 3.	 A requirement to account for and report on the receipt, use, and retention of the revenues
     and other financing sources that distinguishes the earmarked fund from the Government’s
     general revenues.

The AFF meets the definition of an Earmarked Fund, but the SADF does not meet the definition
of an Earmarked Fund.

S.     Tax Exempt Status

As an agency of the Federal Government, AFF is exempt from all income taxes imposed by any
governing body whether it be a Federal, state, commonwealth, local, or foreign government.

T.     Use of Estimates

The preparation of financial statements requires management to make certain estimates and
assumptions that affect the reported amounts of assets and liabilities and the reported amounts of
revenues and expenses during the reporting period. Actual results could differ from those
estimates.

U.    Subsequent Events

Subsequent events and transactions occurring after September 30, 2011 through the date of the
auditors’ opinion have been evaluated for potential recognition or disclosure in the financial
statements. The date of the auditors’ opinion also represents the date that the financial statements
were available to be issued.




                    These notes are an integral part of the financial statements.


                                                    - 37 -
                                                 FY 2011 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


Note 2. Non-Entity Assets

Non-entity assets are assets held by the AFP that are not available for use by the AFP.

As of September 30, 2011 and 2010
                                                                  2011                   2010
Intragovernmental
    Investments, Net (Note 5)                               $     3,903,069          $    1,293,776
With the Public
    Cash and Monetary Assets                                        113,822                 131,030
       Total Non-Entity Assets                                    4,016,891               1,424,806
       Total Entity Assets                                        2,852,752               2,575,039
       Total Assets                                         $     6,869,643          $    3,999,845


Note 3. Fund Balance with U.S. Treasury

As of September 30, 2011 and 2010
                                                                  2011                   2010
 Fund Balances
    Special Funds                                           $       229,030          $     180,150

 Status of Fund Balances
    Unobligated Balance - Available                         $       635,227          $      669,036
    Unobligated Balance - Unavailable                               453,492                 341,143
    Obligated Balance not yet Disbursed                           1,087,411                 978,434
    Other Funds (With)/Without Budgetary Resources               (1,947,100)             (1,808,463)
        Total Status of Fund Balances                       $       229,030          $      180,150

Other Funds (With)/Without Budgetary Resources primarily represent the AFF investments in
short-term securities less amounts Temporarily not Available Pursuant to Public Law.




                     These notes are an integral part of the financial statements.


                                                     - 38 -
                                                FY 2011 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 4. Cash and Monetary Assets

Cash consists of seized cash deposited in the SADF. Monetary assets include seized cash in DOJ
custody but not yet deposited in the SADF.

As of September 30, 2011 and 2010
                                                           2011                     2010
Cash
   Seized Cash Deposited                              $        87,243       $        106,154

Monetary Assets
   Seized Monetary Instruments                                 26,579                 24,876
      Total Cash and Monetary Assets                  $       113,822       $        131,030


Note 5. Investments, Net

The Federal Government does not set aside assets to pay future benefits or other expenditures
associated with AFF. The cash receipts collected from the public for the AFF, an earmarked
fund, are deposited in the U.S. Treasury, which uses the cash for general Government purposes.
Treasury securities are issued to the AFF as evidence of its receipts. Treasury securities are an
asset to the AFF and a liability to the U.S. Treasury. Because the AFF and the U.S. Treasury are
both parts of the Government, these assets and liabilities offset each other from the standpoint of
the Government as a whole. For this reason, they do not represent an asset or a liability in the
U.S. Government-wide financial statements.




                    These notes are an integral part of the financial statements.


                                                    - 39 -
                                                  FY 2011 AFF/SADF Annual Financial Statements
                                     U.S. Department of Justice
                                 Notes to the Financial Statements
                              (Dollars in Thousands, Except as Noted)


Note 5. Investments, Net (continued)

Treasury securities provide the AFF with authority to draw upon the U.S. Treasury to make
future benefit payments or other expenditures. When the AFF requires redemption of these
securities to make expenditures, the Government finances those expenditures out of accumulated
cash balances, by raising taxes or other receipts, by borrowing from the public or repaying less
debt, or by curtailing other expenditures. This is the same way that the Government finances all
other expenditures.

                                                          Unamortized
                                          Face              Premium          Investments,        Market
                                          Value            (Discount)            Net             Value
As of September 30, 2011
    Intragovernmental
        Non-Marketable Securities
           Market-Based
                  AFF                $    2,443,690      $           12     $    2,443,702   $    2,443,596
                SADF                      3,903,291                (222)         3,903,069        3,903,095
Total                                $    6,346,981      $         (210)    $    6,346,771   $    6,346,691



As of September 30, 2010
    Intragovernmental
        Non-Marketable Securities
           Market-Based
                  AFF                $    2,197,692      $         (206)    $    2,197,486   $    2,236,272
                SADF                      1,294,372                (596)         1,293,776        1,255,044
Total                                $    3,492,064      $         (802)    $    3,491,262   $    3,491,316




                      These notes are an integral part of the financial statements.


                                                      - 40 -
                                                FY 2011 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 6. Accounts Receivable

Accounts receivable consist mostly of amounts owed to the AFF from the Treasury Executive
Office for Asset Forfeiture for services provided to the U.S. Treasury. There is no allowance for
uncollectible accounts since accounts receivable from business with Federal entities are
considered fully collectible.

As of September 30, 2011 and 2010
                                                           2011                     2010
Intragovernmental
    Accounts Receivable                               $         4,869       $          4,245

      Total Accounts Receivable                       $         4,869       $          4,245


Note 7. Forfeited and Seized Property

Property seized for any purpose other than forfeiture and held by the seizing agency or a
custodial agency is reported in the financial statements of the seizing or custodial agency. All
property seized for forfeiture, including property with evidentiary value, is reported in the
financial statements of the AFF/SADF. Federal Financial Accounting and Auditing Technical
Release No. 4, Reporting on Non-Valued Seized and Forfeited Property, requires disclosure of
property that does not have a legal market in the United States or does not have a value to the
Federal government.

A.     Forfeited Property

The following tables show the analysis of changes in and methods of disposition of forfeited
property, excluding cash, during the fiscal years ended September 30, 2011 and 2010,
respectively.




                    These notes are an integral part of the financial statements.


                                                    - 41 -
                                                                    FY 2011 AFF/SADF Annual Financial Statements
                                              U.S. Department of Justice
                                          Notes to the Financial Statements
                                       (Dollars in Thousands, Except as Noted)


                 Analysis of Changes in Forfeited Property -- For the Fiscal Year Ended September 30, 2011

                                                                                                                              Liens              Ending
  Forfeited Property                  Beginning                                                         Ending                 and               Balance
      Category                         Balance      Adjustments (1)    Forfeitures     Disposals        Balance               Claims           Net of Liens


Financial Instruments   Number                 97               -              155            (135)               117                  -                117
                        Value              $2,219               -          $15,822        ($16,311)            $1,730                  -             $1,730

Real Property           Number                477               -              315            (340)               452                 -                 452
                        Value             $89,018               -          $74,928        ($65,938)           $98,008             ($866)            $97,142

Personal Property       Number              3,047               -            5,996          (5,659)             3,384                 -               3,384
                        Value            $102,196               -          $93,813       ($121,163)           $74,846             ($972)            $73,874

Firearms, Non-Valued    Number             19,378               -           16,231         (12,016)            23,593                  -             23,593

Total                   Number             22,999               -           22,697         (18,150)         27,546                    -              27,546
                        Value            $193,433               -         $184,563       ($203,412)       $174,584              ($1,838)           $172,746



                        (1) Adjustments represent changes in the valuation or status of property as a result of fair market appraisals and court
                        orders.



                Methods of Disposition of Forfeited Property -- For the Fiscal Year Ended September 30, 2011

                                                                                        Official Use/
                                                                                        Transfer for
  Forfeited Property               Converted Financial Destroyed/Donated/     Sold/      Equitable              Returned
      Category                     Instruments/Property    Transferred    Liquidated (1) Sharing                 Assets Variance (2)               Total


Financial Instruments   Number                        21                   112              -             -              2                 -            135
                        Value                       $484               $14,571              -             -         $1,256                 -        $16,311

Real Property           Number                          -                    5            309            1              25                 -            340
                        Value                           -                 $179        $60,290          $55          $5,414                 -        $65,938

Personal Property       Number                          -                  986          3,509          972             192                 -         5,659
                        Value                           -               $1,461       $105,116      $11,994          $2,592                 -      $121,163

Firearms, Non-Valued    Number                          -               11,355              -          265              396                -         12,016

Total                   Number                        21                12,458          3,818        1,238             615                 -        18,150
                        Value                       $484               $16,211       $165,406      $12,049          $9,262                 -      $203,412

                        (1) The sold/liquidated total dollar value does not agree to Donations and Forfeitures of Property on the Statement of
                        Changes in Net Position and Note 20 because the sold/liquidated amount above represents the assets at their appraised
                        values at forfeiture, and the Donations and Forfeitures of Property on the Statement of Changes in Net Position and
                        Note 20 represents the proceeds realized upon disposition.

                        (2) Variances can result from differences between the value of the property when seized and the value of the property
                        when disposed.




                            These notes are an integral part of the financial statements.


                                                                       - 42 -
                                                                 FY 2011 AFF/SADF Annual Financial Statements
                                              U.S. Department of Justice
                                          Notes to the Financial Statements
                                       (Dollars in Thousands, Except as Noted)


                 Analysis of Changes in Forfeited Property -- For the Fiscal Year Ended September 30, 2010

                                                                                                                               Liens              Ending
  Forfeited Property                  Beginning                                                         Ending                  and              Balance,
      Category                         Balance      Adjustments (1)    Forfeitures      Disposals       Balance                Claims           Net of Liens


Financial Instruments   Number                 90                 -            162             (155)               97                  -                  97
                        Value             $19,680                 -        $10,043         ($27,504)           $2,219              ($155)             $2,064

Real Property           Number                496                 -            358             (377)              477                  -                 477
                        Value            $104,905                 -        $60,739         ($76,626)          $89,018            ($3,468)            $85,550

Personal Property       Number              3,496                 -          5,264           (5,713)         3,047                     -               3,047
                        Value            $105,038                 -        $67,480         ($70,322)      $102,196                 ($688)           $101,508

Firearms, Non-Valued    Number             21,940                 -           9,457         (12,019)           19,378                   -             19,378

Total                   Number             26,022                 -         15,241          (18,264)        22,999                     -              22,999
                        Value            $229,623                 -       $138,262        ($174,452)      $193,433               ($4,311)           $189,122




                        (1) Adjustments represent changes in the valuation or status of property as a result of fair market appraisals and court
                        orders.



                Methods of Disposition of Forfeited Property -- For the Fiscal Year Ended September 30, 2010

                                                                                        Official Use/
                                                                                        Transfer for
  Forfeited Property               Converted Financial Destroyed/Donated/     Sold/      Equitable              Returned
      Category                     Instruments/Property    Transferred    Liquidated (1) Sharing                 Assets Variance (2)                Total


Financial Instruments   Number                        147                    5               -            -                3                -            155
                        Value                     $26,814                  $11               -            -             $679                -        $27,504

Real Property           Number                          -                   28             302            1            46                   -            377
                        Value                           -               $2,264         $62,439         $300       $11,623                   -        $76,626

Personal Property       Number                         4                 1,225           3,240        1,037            191              16             5,713
                        Value                        $49                $4,285         $41,239      $10,856         $4,743          $9,150           $70,322

Firearms, Non-Valued    Number                          -               11,600               -         103              316                 -         12,019

Total                   Number                        151               12,858           3,542        1,141           556               16           18,264
                        Value                     $26,863               $6,560        $103,678      $11,156       $17,045           $9,150         $174,452

                        (1) The sold/liquidated total dollar value does not agree to Donations and Forfeitures of Property on the Statement of
                        Changes in Net Position and Note 20 because the sold/liquidated amount above represents the assets at their appraised
                        values at forfeiture, and the Donations and Forfeitures of Property on the Statement of Changes in Net Position and
                        Note 20 represents the proceeds realized upon disposition.

                        (2) Variances can result from differences between the value of the property when seized and the value of the property
                        when disposed.


                            These notes are an integral part of the financial statements.


                                                                       - 43 -
                                                FY 2011 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)



Note 7. Forfeited and Seized Property (continued)

B.     Seized Property

The following tables show the analysis of changes in and methods of disposition of property
seized for forfeiture during the fiscal years ended September 30, 2011 and 2010, respectively. In
the following tables, Seized Cash and Monetary Instruments includes seized cash in transit as
well as pre-forfeiture deposits into the SADF of monetary instruments and depository account
balances, proceeds from pre-forfeiture sales, and cash received in lieu of seized property.
Financial Instruments include negotiable instruments and restricted depository accounts.




                    These notes are an integral part of the financial statements.


                                                    - 44 -
                                                                            FY 2011 AFF/SADF Annual Financial Statements
                                                    U.S. Department of Justice

                                                Notes to the Financial Statements

                                             (Dollars in Thousands, Except as Noted)



                         Analysis of Changes in Seized Property -- For the Fiscal Year Ended September 30, 2011

                                                                                                                                Liens            Ending
    Seized Property                       Beginning                                                            Ending            and             Balance
       Category                            Balance       Adjustments (1)      Seizures       Disposals         Balance          Claims         Net of Liens

Seized Cash and              Number             11,084                 -           13,078         (12,114)         12,048                -               12,048
Monetary Instruments         Value          $1,424,806                 -       $3,844,026     ($1,251,941)     $4,016,891         ($92,080)          $3,924,811

Financial Instruments	       Number                413              (109)            274               (101)           477               -                  477
                             Value             $99,712          ($66,438)        $24,101            ($4,134)       $53,241         ($3,236)             $50,005

Real Property	               Number                183                 -             153               (190)           146               -                  146
                             Value             $61,270                 -         $49,431           ($62,337)       $48,364        ($16,030)             $32,334

Personal Property	           Number              7,319                 -           7,171             (7,013)        7,477                -                7,477
                             Value            $161,552                 -        $124,371          ($101,920)     $184,003         ($16,209)            $167,794

Firearms, Non-Valued	        Number             34,281                 -          23,858            (21,224)        36,915                -                36,915

Total                        Number             53,280              (109)          44,534         (40,642)         57,063                -               57,063
                             Value          $1,747,340          ($66,438)      $4,041,929     ($1,420,332)     $4,302,499        ($127,555)          $4,174,944



                            (1) Adjustments represent changes in the valuation or status of property as a result of fair market appraisals and court orders




                         Methods of Disposition of Seized Property -- For the Fiscal Year Ended September 30, 2011



    Seized Property                   Converted Financial Destroyed/Donated/    Sold/              Returned
       Category                       Instruments/Property    Transferred    Liquidated             Assets     Forfeited (1)   Variance (2)        Total

Seized Cash and            Number                          -                    114           -          933         11,067               -              12,114
Monetary Instruments       Value                           -                $10,223           -      $73,616     $1,168,102               -          $1,251,941

Financial Instruments	     Number                          -                     9            -           33              59              -                   101
                           Value                           -                  $495            -         $937          $2,702              -                $4,134

Real Property	             Number                          -                     5            1           29            155               -                 190
                           Value                           -                  $161       $1,600       $9,333        $51,243               -             $62,337

Personal Property	         Number                          -                    112           6        1,425          5,470               -               7,013
                           Value                           -                 $1,030         $29      $25,145        $75,716               -            $101,920

Firearms, Non-Valued	      Number                          -                   572            -        1,104          19,548              -                21,224

Total                      Number                          -                    812           7        3,524         36,299               -              40,642
                           Value                           -                $11,909      $1,629     $109,031     $1,297,763               -          $1,420,332

                           (1) Forfeitures reported on the Analysis of Changes in Forfeited Property may be greater because some assets are not seized
                               until after they are declared forfeited
                           (2) Variances can result from differences between the value of the property when seized and the value of the property when disposed




                                 These notes are an integral part of the financial statements.


                                                                                - 45 -
                                                                           FY 2011 AFF/SADF Annual Financial Statements
                                                   U.S. Department of Justice
                                               Notes to the Financial Statements
                                            (Dollars in Thousands, Except as Noted)


                        Analysis of Changes in Seized Property -- For the Fiscal Year Ended September 30, 2010

                                                                                                                                 Liens           Ending
    Seized Property                      Beginning                                                              Ending            and            Balance
       Category                           Balance        Adjustments (1)     Seizures          Disposals        Balance          Claims        Net of Liens

Seized Cash and             Number             10,053                 -          12,766             (11,735)        11,084                -             11,084
Monetary Instruments        Value          $1,451,259                 -      $1,588,064         ($1,614,517)    $1,424,806         ($91,260)        $1,333,546

Financial Instruments       Number                365                 -             114                  (66)           413               -                413
                            Value            $124,578          ($37,259)        $28,692             ($16,299)       $99,712         ($9,045)           $90,667

Real Property               Number                210                 -             162                 (189)           183               -                183
                            Value             $66,178           ($5,699)        $56,409             ($55,618)       $61,270         ($9,675)           $51,595

Personal Property           Number              7,429                 -           6,699               (6,809)        7,319                -             7,319
                            Value             $158,880                -          $88,032            ($85,360)      $161,552        ($11,544)          $150,008

Firearms, Non-Valued        Number             39,569                 -              9,459           (14,747)        34,281                -              34,281

Total                       Number             57,626                 -          29,200             (33,546)        53,280                -             53,280
                            Value          $1,800,895          ($42,958)     $1,761,197         ($1,771,794)    $1,747,340        ($121,524)        $1,625,816



                           (1) Adjustments represent changes in the valuation or status of property as a result of fair market appraisals and court orders




                        Methods of Disposition of Seized Property -- For the Fiscal Year Ended September 30, 2010



    Seized Property                  Converted Financial Destroyed/Donated/    Sold/                Returned
       Category                      Instruments/Property    Transferred    Liquidated               Assets     Forfeited (1)   Variance (2)      Total

Seized Cash and           Number                         53                    56               -         872         10,754               -            11,735
Monetary Instruments      Value                      $3,318                  $781               -     $97,626     $1,512,792               -        $1,614,517

Financial Instruments     Number                           -                    5               -          12             49               -                66
                          Value                            -                  $14               -      $2,234        $14,051               -           $16,299

Real Property             Number                           -                    3               2          22            162               -               189
                          Value                            -                 $739            $347      $8,458        $46,074               -           $55,618

Personal Property         Number                           -                   103             13       1,552          5,141               -             6,809
                          Value                            -                $2,413           $207     $26,771        $55,969               -           $85,360

Firearms, Non-Valued      Number                           -                   181              -       1,276          13,290              -              14,747
                                                                                 -
Total                     Number                         53                    348             15       3,734         29,396               -            33,546
                          Value                      $3,318                 $3,947           $554    $135,089     $1,628,886               -        $1,771,794

                          (1) Forfeitures reported on the Analysis of Change in Forfeited Property may be greater because some assets are not seized
                              until after they are declared forfeited
                          (2) Variances can result from differences between the value of the property when seized and the value of the property when disposed




                                These notes are an integral part of the financial statements.


                                                                               - 46 -
                                                FY 2011 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 7. Forfeited and Seized Property (continued)

C.     Anticipated Equitable Sharing in Future Periods

The statute governing the use of the AFF (28 U.S.C. §524(c)) permits the payment of equitable
shares of forfeiture proceeds to participating foreign governments and state and local law
enforcement agencies. The statute does not require such sharing and permits the Attorney
General wide discretion in determining those transfers. Actual sharing is difficult to predict
because many factors influence both the amount and time of disbursement of equitable sharing
payments, such as the length of time required to move an asset through the forfeiture process to
disposition, the amount of net proceeds available for sharing, the lapse of time for Departmental
approval of equitable sharing requests for cases with asset values exceeding $1 million, and
appeal of forfeiture judgments. Because of uncertainties surrounding the timing and amount of
any equitable sharing payment, an obligation and expense are recorded only when the actual
disbursement of the equitable sharing payment is imminent. The anticipated equitable sharing
allocation level for FY 2012 is $446 million.



Note 8. General Property, Plant and Equipment, Net

                                     Acquisition      Accumulated         Net Book        Useful
                                       Cost           Depreciation         Value           Life
As of September 30, 2011

Leasehold Improvements               $       470       $      (470)      $            -    5 years
Internal Use Software                        709               (76)                 633    7 years
   Total                             $     1,179       $      (546)      $          633

As of September 30, 2010

Leasehold Improvements               $       470       $       (470)     $          -      5 years
Internal Use Software                      4,577             (3,160)            1,417      7 years
    Total                            $     5,047       $     (3,630)     $      1,417




                    These notes are an integral part of the financial statements.


                                                    - 47 -
                                                 FY 2011 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)



Note 9. Other Assets

As of September 30, 2011 and 2010
                                                             2011                        2010
Intragovernmental
    Advances and Prepayments                         $              1,766        $              2,607


Note 10. Liabilities not Covered by Budgetary Resources

As of September 30, 2011 and 2010
                                                                     2011                        2010

   Accrued Annual and Compensatory Leave Liability            $            168           $                      -
   Total Liabilities not Covered by Budgetary Resources                    168                                  -
   Total Liabilities Covered by Budgetary Resources                  5,108,931                          2,312,445
   Total Liabilities                                          $      5,109,099           $              2,312,445



Note 11. Seized Cash and Monetary Instruments

The Seized Cash and Monetary Instruments represent liabilities for seized assets held by the
SADF pending disposition.

As of September 30, 2011 and 2010
                                                                  2011                       2010

   Investments, Net (Note 5)                             $          3,903,069        $          1,293,776
   Seized Cash Deposited (Note 4)                                      87,243                     106,154
   Seized Monetary Instruments (Note 4)                                26,579                      24,876
     Total Seized Cash and Monetary Instruments          $          4,016,891        $          1,424,806




                     These notes are an integral part of the financial statements.


                                                     - 48 -
                                                   FY 2011 AFF/SADF Annual Financial Statements
                                     U.S. Department of Justice
                                 Notes to the Financial Statements
                              (Dollars in Thousands, Except as Noted)


Note 12. Other Liabilities

All Other Liabilities are current liabilities.

As of September 30, 2011 and 2010
                                                                    2011                       2010
Intragovernmental
    Employer Contributions and Payroll Taxes Payable            $            169       $                 -


Note 13. Contingencies and Commitments

                                                  Accrued                    Estimated Range of Loss
                                                  Liabilities              Lower             Upper
      As of September 30, 2011
         Reasonably Possible                  $                 -    $         4,000       $          4,000

      As of September 30, 2010
         Reasonably Possible                  $                 -    $         4,000       $          4,000




                      These notes are an integral part of the financial statements.


                                                       - 49 -
                                                FY 2011 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 14. Earmarked Funds

The AFF, an earmarked fund, exists to eliminate economic disincentives to operation of an
extensive national asset forfeiture program by providing a stable source of funds to pay costs, not
otherwise funded under agency appropriations, to execute forfeiture functions. This is made
possible by depositing the proceeds of all forfeitures under any laws enforced or administered by
the Department into the Fund, and using those receipts to finance expenses associated with asset
forfeiture functions.

The funds in the AFF are derived primarily from financing sources and are presented on the
Consolidated Statement of Changes in Net Position as both Budgetary and Other Financing
Sources. Financing sources consist of (1) interest earned on Treasury investments (i.e.,
nonexchange revenues) and (2) non-governmental donations and forfeitures, which include
forfeited cash, proceeds from the sale of forfeited property (or conversion of deferred revenue to
realized revenue through sale), receipt of payments in lieu of property forfeiture, recovery of
asset management expenses, and financing sources from judgments.

The AFF recognizes exchange revenue, on a reimbursement basis, when the United States
Attorneys Offices provide services in judicial forfeiture cases brought by agencies participating
in the TFF. This revenue is presented on the Consolidated Statement of Net Cost as earned
revenue. In accordance with 28 U.S.C. § 524 and AFMS Memorandums of Understanding,
donations and forfeitures available for use by certain Federal agencies are treated as returns of
financing sources when disbursed.

All funds deposited to the AFF are considered "public" monies, i.e., funds belonging to the U.S.
Government. The monies deposited into the AFF are available to cover all expenditures in
support of the AFP that are allowable under the Fund statute created by the Comprehensive
Crime Control Act of 1984 (P.L. 98-473, dated October 12, 1984) at 28 U.S.C. § 524(c).




                    These notes are an integral part of the financial statements.


                                                    - 50 -
                                                   FY 2011 AFF/SADF Annual Financial Statements
                                        U.S. Department of Justice
                                    Notes to the Financial Statements
                                 (Dollars in Thousands, Except as Noted)


Note 14. Earmarked Funds (continued)

As of September 30, 2011 and 2010

                                                            2011                       2010
Balance Sheet
    Assets
        Fund Balance with U.S. Treasury              $         229,030          $         180,150
        Investments, Net                                     2,443,702                  2,197,486
        Other Assets                                           180,020                    197,403
           Total Assets                              $       2,852,752          $       2,575,039

    Liabilities
        Accounts Payable                             $         918,358          $        698,517
        Other Liabilities                                      173,850                   189,122
             Total Liabilities                       $       1,092,208          $        887,639

    Net Position
       Cumulative Results of Operations              $       1,760,544          $       1,687,400
          Total Net Position                         $       1,760,544          $       1,687,400
          Total Liabilities and Net Position         $       2,852,752          $       2,575,039



For the Fiscal Years Ended September 30, 2011 and 2010

                                                            2011                       2010
Statement of Net Cost
        Gross Cost of Operations                     $       1,673,412          $       1,291,742
        Less: Exchange Revenue                                   9,513                      7,324
           Net Cost of Operations                    $       1,663,899          $       1,284,418

Statement of Changes in Net Position
     Net Position Beginning of Period                $       1,687,400          $       1,425,883

    Budgetary Financing Sources                               1,585,180                 1,506,330
    Other Financing Sources                                     151,863                    39,605
        Total Financing Sources                               1,737,043                 1,545,935
    Net Cost of Operations                                   (1,663,899)               (1,284,418)
    Net Change                                                   73,144                   261,517
    Net Position End of Period                       $        1,760,544         $       1,687,400


                       These notes are an integral part of the financial statements.


                                                         - 51 -
                                                       FY 2011 AFF/SADF Annual Financial Statements
                                        U.S. Department of Justice
                                    Notes to the Financial Statements
                                 (Dollars in Thousands, Except as Noted)


Note 15. Net Cost of Operations by Suborganization

                                                                      Less: Earned        Net Cost of
                                                        Gross Cost      Revenue           Operations
For the Fiscal Year Ended September 30, 2011

   Goal 2:     Payments to Third Parties                $ 639,253     $           -      $     639,253
               Asset Management Expenses                    47,630                -             47,630
               Special Contract Services                   116,746            9,513            107,233
               ADP Equipment                                 7,425                -              7,425
               Forfeiture Case Prosecution                  53,530                -             53,530
               Forfeiture Training and Printing             12,725                -             12,725
               Other Program Management                     35,014                -             35,014
               Awards for Information                       28,218                -             28,218
               Purchase of Evidence                          9,078                -              9,078
               Equipping Conveyances                           147                -                147
               Contracts to Identify Assets                 31,874                -             31,874
               Investigative Cost Leading to Seizure        74,225                -             74,225
               Equitable Sharing                           440,063                -            440,063
               Joint Law Enforcement Operations            177,484                -            177,484
                  Net Cost of Operations                $1,673,412    $       9,513      $   1,663,899

   Goal 2: 	   Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People


                                                                      Less: Earned        Net Cost of
                                                        Gross Cost      Revenue           Operations
For the Fiscal Year Ended September 30, 2010

   Goal 2:	    Payments to Third Parties                $ 254,228     $           -      $     254,228
               Asset Management Expenses                     9,823                -              9,823
               Special Contract Services                   116,709            7,324            109,385
               ADP Equipment                                 7,489                -              7,489
               Forfeiture Case Prosecution                  54,039                -             54,039
               Forfeiture Training and Printing             10,309                -             10,309
               Other Program Management                     44,661                -             44,661
               Awards for Information                       12,127                -             12,127
               Purchase of Evidence                          7,776                -              7,776
               Equipping Conveyances                           819                -                819
               Contracts to Identify Assets                 19,778                -             19,778
               Investigative Cost Leading to Seizure        55,110                -             55,110
               Equitable Sharing                           550,288                -            550,288
               Joint Law Enforcement Operations            148,586                -            148,586
                  Net Cost of Operations                $1,291,742    $       7,324      $   1,284,418

   Goal 2: 	   Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People

                        These notes are an integral part of the financial statements.


                                                         - 52 -
                                                FY 2011 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 16. Imputed Financing from Costs Absorbed by Others

Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e. non-reimbursed
and under-reimbursed) portion of the full costs of goods and services received by the AFF from a
providing entity that is not part of the Department of Justice. In accordance with SFFAS No. 30,
Inter-Entity Cost Implementation Amending SFFAS 4, Managerial Cost Accounting Standards
and Concepts, the material Imputed Inter-Departmental financing sources recognized by the AFF
are the cost of benefits for the Federal Employees Health Benefits Program (FEHB), the Federal
Employees’ Group Life Insurance Program (FEGLI), the Federal Pension plans that are paid by
other Federal entities, and any un-reimbursed payments made from the Treasury Judgment Fund
on behalf of the AFF.

SFFAS No. 5, Accounting for Liabilities of the Federal Government, requires that employing
agencies recognize the cost of pensions and other retirement benefits during their employees’
active years of service. SFFAS No. 5 requires OPM to provide cost factors necessary to calculate
cost. OPM actuaries calculate the value of pension benefits expected to be paid in the future, and
then determine the total funds to be contributed by and for covered employees, such that the
amount calculated would be sufficient to fund the projected pension benefits. For employees
covered by CSRS, the cost factors are 30.1% of basic pay For employees covered by FERS, the
cost factors are 13.8% of basic pay.

The cost to be paid by other agencies is the total calculated future costs, less employee and
employer contributions. In addition, the cost of other retirement benefits, which included health
and life insurance that are paid by other Federal entities, must also be recorded.


For the Fiscal Years Ended September 30, 2011 and 2010
                                                                 2011                   2010
Imputed Inter-Departmental Financing
   Health Insurance                                                       398                  -
   Life Insurance                                                           2                  -
   Pension                                                                202                  -
      Total Imputed Inter-Departmental                    $               602       $          -


Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4, Managerial Cost
Accounting Standards and Concepts, are the unreimbursed portion of the full costs of goods and
services received by the AFF from another component in the Department. The AFF does not
have any imputed intra-departmental financing sources that meet the reporting requirements of
the Department.




                    These notes are an integral part of the financial statements.


                                                    - 53 -
                                                   FY 2011 AFF/SADF Annual Financial Statements
                                      U.S. Department of Justice
                                  Notes to the Financial Statements
                               (Dollars in Thousands, Except as Noted)


Note 17. Information Related to the Statement of Budgetary Resources

Apportionment Categories of Obligations Incurred:

                                                    Direct                Reimbursable          Obligations
                                                   Obligations             Obligations           Incurred
For the Fiscal Year Ended September 30, 2011
   Obligations Apportioned Under
      Category A                               $          16,425      $                 -   $           16,425
      Category B                                       1,599,537                    4,244            1,603,781
   Total                                       $       1,615,962     $              4,244   $        1,620,206



For the Fiscal Year Ended September 30, 2010
   Obligations Apportioned Under
      Category A                               $          31,830      $                 -   $           31,830
      Category B                                       1,391,479                    7,374            1,398,853
   Total                                       $       1,423,309     $              7,374   $        1,430,683


Apportionment categories are determined in accordance with the guidance provided in Part 4
Instructions on Budget Execution of OMB Circular No. A-11, Preparation, Submission, and
Execution of the Budget. Category A represents resources apportioned for calendar quarters.
Category B represents resources apportioned for other periods; for activities, projects, and
objectives; or for a combination thereof.




                       These notes are an integral part of the financial statements.


                                                       - 54 -
                                                FY 2011 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 17. Information Related to the Statement of Budgetary Resources (continued)

Status of Undelivered Orders:

Undelivered Orders (UDOs) represent the amount of goods and/or services ordered, which have
not been actually or constructively received. This amount includes any orders which may have
been prepaid or advanced but for which delivery or performance has not yet occurred.

As of September 30, 2011 and 2010
                                                                2011                  2010

          UDO Obligations Unpaid                             $ 173,007              $ 284,162
          UDO Obligations Prepaid/Advanced                       1,774                  2,620
             Total UDOs                                      $ 174,781              $ 286,782


Permanent Indefinite Appropriations:

28 U.S.C. § 524(c)(1) authorizes the Attorney General to use AFF receipts to pay program
operations expenses, equitable sharing to state and local law enforcement agencies who assist in
forfeiture cases, and lien holders. This permanent indefinite authority is open-ended as to both its
period of availability (amount of time the agency has to spend the funds) and its amount.

Legal Arrangements Affecting Use of Unobligated Balances:

Unobligated balances represent the cumulative amount of budget authority that is not obligated
and that remains available for obligation, unless otherwise restricted. Excess unobligated
balances identified at the end of a fiscal year may be declared a “Super Surplus” balance. Super
Surplus balances may be allocated at the discretion of the Attorney General for “…any Federal
law enforcement, litigative/prosecutive, and correctional activities, or any other authorized
purpose of the DOJ” pursuant to 28 U.S.C. § 524(c)(8)(E).




                    These notes are an integral part of the financial statements.


                                                    - 55 -
                                                      FY 2011 AFF/SADF Annual Financial Statements
                                          U.S. Department of Justice
                                      Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)


Note 17. Information Related to the Statement of Budgetary Resources (continued)

Statement of Budgetary Resources vs. Budget of the United States Government:

The reconciliation as of September 30, 2011 is not presented, because the submission of the
Budget of the United States (Budget) for FY 2013, which presents the execution of the FY 2011
Budget, occurs after publication of these financial statements. The Department of Justice Budget
Appendix can be found on the OMB website (http://www.whitehouse.gov/omb/budget) and will
be available in early February 2012.


For the Fiscal Year Ended September 30, 2010
(Dollars in Millions)                                                                                      Distributed
                                                            Budgetary              Obligations             Offsetting             Net
                                                            Resources               Incurred                Receipts             Outlays

Statement of Budgetary Resources (SBR)                  $          2,441       $          1,431        $                 4   $        1,286

Funds not Reported in Budget of the U.S.
   Forfeiture Activity                                                  (12)                  -                          -                 -
   OCDETF Adjustments                                                    (9)                 15                          -                 -
   Special and Trust Funds Receipts                                       -                   -                          -                 4

Other                                                                     -                      (1)                     1                 -

Budget of the United States Government                  $          2,420       $          1,445        $                 5   $        1,290



Funds not reported in the Budget - Forfeiture Activity, primarily represent forfeiture activities
that are unavailable until the authority is granted in the subsequent year. These activities
represent real estate sales and accrued revenue. Other differences represent financial statement
adjustments, timing differences, and other immaterial differences between amounts reported in
the AFF’s SBR and the Budget of the United States.




                          These notes are an integral part of the financial statements.


                                                            - 56 -
                                                   FY 2011 AFF/SADF Annual Financial Statements
                                      U.S. Department of Justice
                                  Notes to the Financial Statements
                               (Dollars in Thousands, Except as Noted)


Note 18. Super Surplus Transfers

The AFF’s statute, 28 U.S.C. §524(c)(8)(E), provides the Attorney General with the authority to
use the AFF’s excess unobligated balance remaining at the end of a FY without fiscal year
limitation for any Federal law enforcement, litigative/prosecutive, and correctional activities, or
any other authorized purpose of the Department of Justice. The excess unobligated balance
consists of the AFF’s unobligated balance at the end of the FY after the Program’s operational
needs for the subsequent year are reserved. The excess unobligated balance is historically known
as “Super Surplus.”

The Attorney General approved the following allocations of Super Surplus during FYs 2011 and
2010. The most recent Super Surplus declarations were in FYs 2005 and 2008.


For the Fiscal Years Ended September 30, 2011 and 2010

                                                                            2011                 2010
Civil Division                                                        $                338   $         338
Executive Office for U.S. Attorneys                                                     32             194
Community Oriented Policing Services                                                     -          26,000
   Total DOJ Allocations                                              $                370   $      26,532

2005 Super Surplus                                                    $                370   $         532
2008 Super Surplus                                                                       -          26,000
   Total Allocations                                                  $                370   $      26,532




                       These notes are an integral part of the financial statements.


                                                       - 57 -
                                                FY 2011 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 18. Super Surplus Transfers (continued)

Since Super Surplus authority is not the result of an exchange of goods or services between the
AFF and the agency receiving the funding, the AFF records the allocation of Super Surplus funds
to the agencies as transfers out. The agencies receiving Super Surplus authority record transfers
in. As of September 30, 2011 and 2010, $27 and $26,474 was transferred out respectively. The
AFF also records a liability for the amount of any Super Surplus provided in the current or prior
fiscal years that has not yet been transferred out. As of September 30, 2011 and 2010, Super
Surplus liabilities totaled $70 and $62, respectively.

Transfers-out of Forfeited Property for Official Use. Property was distributed pursuant to the
Attorney General’s authority to share forfeiture revenues with agencies that participated in the
forfeiture that generated the property, and pursuant to the DOJ’s authority to place forfeited
property into official use by the Government. As of September 30, 2011 and 2010, transfers-out
of forfeited property for official use totaled $6,091 and $4,785, respectively.


Note 19. Nonexchange Revenues

Nonexchange revenue consists of income from the investment of the AFF and SADF in U.S.
Treasury securities. The investment accrual revenue represents the amortization of the discount
on marketable bills using the straight-line basis.

For the Fiscal Years Ended September 30, 2011 and 2010

                                                             2011                   2010

Income from AFF investments                           $             2,369       $          2,474
Income from SADF investments                                        2,492                  2,108
Amortization of AFF/SADF discount/(premium)                          (265)                  (718)
   Total Investment Income                            $             4,596       $          3,864




                    These notes are an integral part of the financial statements.


                                                    - 58 -
                                                  FY 2011 AFF/SADF Annual Financial Statements
                                     U.S. Department of Justice
                                 Notes to the Financial Statements
                              (Dollars in Thousands, Except as Noted)


Note 20. Donations and Forfeitures

Forfeiture income includes forfeited cash, sales of forfeited property, penalties in lieu of
forfeiture, recovery of returned asset management costs, judgment collections, and other
miscellaneous income. For the Fiscal Years ended September 30, 2011 and 2010, net forfeiture
income attributable to the AFF totaled $1,737,965 and $1,573,330 respectively, after the
following payments and returns to agencies participating in seizures that led to forfeiture.


                                                                        2011              2010

Payments to individuals or organizations for proceeds from        $         2,130     $      6,524
assets forfeited and deposited into the AFF and
subsequently returned to them through a settlement
agreement or by court order.
Return of forfeiture income to the TFF for its participation               94,587          159,167
in seizures that led to forfeiture.

Return of forfeiture income to the U.S. Postal Service for                 21,645           25,142
its participation in seizures that led to forfeiture.

Return of forfeiture income to other Federal agencies for                      504           1,481
their participation in seizures that led to forfeiture.

Total Return of Forfeiture Income                                 $       118,866     $    192,314




                      These notes are an integral part of the financial statements.


                                                      - 59 -
                                                  FY 2011 AFF/SADF Annual Financial Statements
                                     U.S. Department of Justice
                                 Notes to the Financial Statements
                              (Dollars in Thousands, Except as Noted)


Note 21. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
Statement of Financing)

For the Fiscal Years Ended September 30, 2011 and 2010
                                                                                 2011               2010
Resources Used to Finance Activities
    Budgetary Resources Obligated
       Obligations Incurred                                                 $ 1,620,206          $ 1,430,683
       Less: Spending Authority from Offsetting Collections and
              Recoveries                                                           95,978             77,624
       Obligations Net of Offsetting Collections and Recoveries                 1,524,228          1,353,059
       Less: Offsetting Receipts                                                    4,596              3,864
       Net Obligations                                                          1,519,632          1,349,195

    Other Resources
        Donations and Forfeitures of Property                                     157,381              70,864
        Transfers-In/Out Without Reimbursement                                     (6,120)            (31,259)
        Imputed Financing from Cost Absorbed by Others                                602                   -
        Net Other Resources Used to Finance Activities                            151,863              39,605
Total Resources Used to Finance Activities                                      1,671,495           1,388,800

Resources Used to Finance Items not Part of the Net Cost of
   Operations
    Change in Budgetary Resources Obligated for Goods, Services,
        and Benefits Ordered but not Yet Provided                                 111,312             (60,185)
    Budgetary Offsetting Collections and Receipts That do not
        Affect Net Cost of Operations                                             (152,785)           (67,602)
    Other Resources or Adjustments to Net Obligated Resources
        That do not Affect Net Cost of Operations                                      6,091            4,784
Total Resources Used to Finance Items not Part of the Net Cost
    of Operations                                                                     (35,382)       (123,003)
Total Resources Used to Finance the Net Cost of Operations                      1,636,113           1,265,797




                      These notes are an integral part of the financial statements.


                                                      - 60 -
                                                  FY 2011 AFF/SADF Annual Financial Statements
                                     U.S. Department of Justice
                                 Notes to the Financial Statements
                              (Dollars in Thousands, Except as Noted)


Note 21. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
Statement of Financing) (continued)

Components of Net Cost of Operations That Will not Require
   or Generate Resources in the Current Period
    Components That Will Require or Generate Resources
       in Future Periods (Note 22)                                          $           168    $           -
    Components not Requiring or Generating Resources
       Depreciation and Amortization                                                   1,493            654
       Other                                                                          26,125         17,967
                                                                            $         27,618   $     18,621

Total Components of Net Cost of Operations That Will not
    Require or Generate Resources in the Current Period                               27,786         18,621

Net Cost of Operations                                                      $   1,663,899      $   1,284,418




                      These notes are an integral part of the financial statements.


                                                      - 61 -
                                                 FY 2011 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


Note 22. Explanation of Differences Between Liabilities not Covered by Budgetary
Resources and Components of Net Cost of Operations Requiring or Generating Resources
in Future Periods

Liabilities that are not covered by realized budgetary resources and for which there is not
certainty that budgetary authority will be realized, such as the enactment of an appropriation, are
considered liabilities not covered by budgetary resources. These liabilities totaling $168 and $0
on September 30, 2011 and 2010, respectively, are discussed in Note 10, Liabilities not Covered
by Budgetary Resources. Decreases in these liabilities result from current year budgetary
resources that were used to fund expenses recognized in prior periods. Increases in these
liabilities represent unfunded expenses that were recognized in the current period. These
increases, along with the change in the portion of exchange revenue receivables from the public,
which are not considered budgetary resources until collected, represent components of current
period net cost of operations that will require or generate budgetary resources in future periods.
The changes in liabilities not covered by budgetary resources and receivables generating
resources in future periods are comprised of the following:

For the Fiscal Years Ended September 30, 2011 and 2010
                                                                                     2011         2010
 Components of Net Cost of Operations That Will Require or Generate
  Resources in Future Periods
    Increase in Accrued Annual and Compensatory Leave Liabilities                $      168   $          -




                     These notes are an integral part of the financial statements.


                                                     - 62 -
